No. 19-455
IN THE SUPREME COURT OF THE UNITED STATES
_________________
ARRIS INTERNATIONAL LIMITED, PETITIONER
v.
CHANBOND, LLC, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE FEDERAL RESPONDENT IN OPPOSITION, via email and firstclass mail, postage prepaid, this 6TH day of December, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 3737 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on December 6, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 6, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0455
ARRIS INTERNATIONAL LIMITED
CHANBOND, LLC, ET AL.

DONALD J. ENGLISH
DUANE MORRIS LLP
505 9TH STREET, NW
SUITE 1000
WASHINGTON, DC 20004
202-776-5228
DJENGLISH@DUANEMORRIS.COM
ANDREA PACELLI
NEW YORK LLP
156 FIFTH AVENUE
SUITE 904
NEW YORK , NY 10010
212-612-3270
ANDREA.PACELLI@MISHCON.COM

